No. 19-438
IN THE

CLEMENTE AVELINO PEREIDA,

Petitioner,

V.
WILLIAM P. BARR, ATTORNEY GENERAL,

Respondent.

ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I, David Lesser, a member of the
bar of this Court, certify that the accompanying Brief for Amici Curiae National
Association of Criminal Defense Lawyers and National Association of Federal
Defenders in Support of Petitioner contains 6,513 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.l(d).
Executed on February 4, 2020.

DAVID LESSER

-~

Counsel of Record

WILMER CUTLER PICKERING
HALE AND DORR LLP

7 World Trade Center
250 Greenwich St.
New York, NY 10007
(212) 230-8800
david.lesser@wilmerhale.com

